2311 Douglas Street

C@OCKLE

Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-465
PETER BRET CHIAFALO, LEVI JENNET GUERRA,
AND ESTHER VIRGINIA JOHN,
Petitioners,
v.
STATE OF WASHINGTON,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of November, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE VINZ KOLLER IN SUPPORT
OF PETITIONERS in the above entitled case. All parties required to be served have been served by Priority Mail. Packages
were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ANDREW J. DHUEY
Counsel of Record
BRIDGET A. CLARKE
456 Boynton Avenue
Berkeley, CA 94707
(510) 528-8200
ajdhuey@comcast.net

MELODY A. KRAMER

KRAMER LAW OFFICE, INC.
4010 Sorrento Valley Blvd., Ste. 400
San Diego, CA 92121

(855) 835-5520

Counsel for Amicus Curiae

Subscribed and sworn to before me this 8th day of November, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ad EC Cll Qudiow-h, Che

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38897
Attorney for Petitioners:

Lawrence Lessig

Harvard Law School

1563 Massachusetts Avenue
Cambridge, MA 02138
617-496-8853
lessig@law.harvard.edu

Attorney for Respondent:

Noah G. Purcell

PO Box 40100

Olympia, WA 98504-0100
360-753-2536
noahp@atg.wa.gov
